<html>
<title> - [H.A.S.C. No. 114-64]AIRCRAFT CARRIER--PRESENCE AND SURGE LIMITATIONS AND EXPANDING POWER PROJECTION OPTIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







 
                         [H.A.S.C. No. 114-64]

                     AIRCRAFT CARRIER--PRESENCE AND

        SURGE LIMITATIONS AND EXPANDING POWER PROJECTION OPTIONS

                               __________

                             JOINT HEARING

                               before the

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                          meeting jointly with

                       SUBCOMMITTEE ON READINESS

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 3, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     





                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-498                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        













                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk

                                 ------                                

                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Craig Collier, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Stackley, Hon. Sean J., Assistant Secretary of the Navy, 
  Research, Development, and Acquisition; VADM John C. Aquilino, 
  USN, Deputy Chief of Naval Operations, Operations, Plans and 
  Strategy (N3/N5); RADM Thomas J. Moore, USN, Program Executive 
  Officer, Aircraft Carriers, Department of the Navy; and RADM 
  Michael C. Manazir, USN, Director, Air Warfare (OPNAV).........     2

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    39
    Forbes, Hon. J. Randy........................................    37
    Stackley, Hon. Sean J., joint with VADM John C. Aquilino, 
      RADM Thomas J. Moore, and RADM Michael C. Manazir..........    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [Responses provided were classified.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    55
    Mr. Hunter...................................................    55







                 AIRCRAFT CARRIER--PRESENCE AND SURGE
                    LIMITATIONS AND EXPANDING POWER
                           PROJECTION OPTIONS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Seapower and 
            Projection Forces, Meeting Jointly with the 
            Subcommittee on Readiness, Washington, DC, 
            Tuesday, November 3, 2015.

    The subcommittees met, pursuant to call, at 2:35 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the Subcommittee on Seapower and Projection 
Forces) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Today the subcommittee meets to discuss our 
aircraft carrier fleet and the challenges we face in meeting 
presence and surge requirements and sustaining our ability to 
project power overseas. We thank all of our panelists for their 
patience in these votes. I am sorry we are getting started just 
a little bit later.
    Because of that, all of us have agreed to basically waive 
our opening statements. We are going to put them in the record, 
and so we can get directly to Mr. Stackley's opening comments, 
and then we can go to questions.
    [The prepared statements of Mr. Forbes and Mr. Courtney can 
be found in the Appendix beginning on page 37.]
    Mr. Forbes. We have a distinguished group of panelists 
today that includes the Honorable Sean J. Stackley, Assistant 
Secretary of the Navy for Research, Development, and 
Acquisitions; Vice Admiral John C. Aquilino, Deputy Chief of 
Naval Operations for Operations, Plans, and Strategy; also, 
Rear Admiral Michael C. Manazir, Director for Air Warfare; and 
Rear Admiral Thomas J. Moore, Program Executive Officer for 
Aircraft Carriers.
    Gentlemen, thank you all for your service to our country. 
Thank you for being willing to be here to testify for us today, 
and thank you so much for your willingness to help us and guide 
us as a subcommittee in making sure we are doing the right 
thing for our national defense.
    With that, I would like to look to see if Mr. Courtney has 
any comments? Mr. Wittman? Mrs. Davis?
    If none, then we go directly to Mr. Stackley. Thank you, 
Mr. Secretary for being here, and we look forward to your 
opening remarks.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
  NAVY, RESEARCH, DEVELOPMENT, AND ACQUISITION; VADM JOHN C. 
 AQUILINO, DEPUTY CHIEF OF NAVAL OPERATIONS, OPERATIONS, PLANS 
 AND STRATEGY (N3/N5); RADM THOMAS J. MOORE, PROGRAM EXECUTIVE 
 OFFICER, AIRCRAFT CARRIERS, DEPARTMENT OF THE NAVY; AND RADM 
       MICHAEL C. MANAZIR, DIRECTOR, AIR WARFARE (OPNAV)

               STATEMENT OF HON. SEAN J. STACKLEY

    Secretary Stackley. Yes, sir. Thank you, Mr. Chairman. 
Chairman Forbes, Chairman Wittman, Ranking Member Courtney, 
Representative Davis, distinguished members of the Seapower and 
Readiness Subcommittees, thank you for the opportunity to 
appear today to address the capability provided by our Nation's 
aircraft carriers. And with your permission, I would like to 
make a brief opening statement and submit a full formal 
statement for the record.
    Mr. Forbes. Without objection.
    Secretary Stackley. Before remarking on the topic of this 
hearing, I do want to express gratitude on behalf of the 
Department of the Navy with regards to you all's heavy lifting 
in giving us a budget deal, and your work towards the National 
Defense Authorization Act [NDAA] for 2016. A 2-year deal goes a 
long, long way in terms of providing stability for planning, 
and now we will work with the deltas between the President's 
budget request and the top line that we receive, but I know it 
is a heavy lift on everybody's part, and it is much, much 
appreciated.
    Today's Navy is a balanced force of 272 ships, near half of 
which is routinely underway, and of that number, from the 
Eastern Med [Mediterranean] to the Sea of Japan to the South 
Atlantic and points beyond, about 100 ships and more than 
75,000 sailors and marines are typically deployed.
    They are the providers of maritime security around the 
world. They are our first responders to crisis, in the 
aftermath of natural disaster to provide relief, in the face of 
regional turmoil to weigh against aggression, and when called 
into action to defeat our foe. They are our surest defense 
against the threat of ballistic missiles and they are the 
Nation's surest deterrent against the use of strategic weapons. 
Their effectiveness in providing stability is a product of 
their presence, their response time, and their ability to 
project power.
    Accordingly, in determining the requirements for building, 
operating, maintaining, and modernizing our Navy, as necessary 
to conduct the full range of military operations assigned to 
the naval forces, we placed a priority on forward presence, 
current readiness, investment in those future capabilities 
critical to our technical superiority, and stability in our 
shipbuilding plan.
    Against the backdrop of today's force, the Chief of Naval 
Operations' [CNO] Force Structure Assessment outlines the 
requirement to build to a 308-ship Navy by the post-2020 
timeframe to meet our requirements against the projected threat 
of that day. We are on that path.
    Inarguably, as an instrument of American diplomacy, power 
projection, and global security, the centerpiece of both 
today's and the future naval force is the aircraft carrier. In 
recent years, from combat operations over the skies of 
Afghanistan, to Iraq, to Libya, and Syria, to relief operations 
in response to natural disasters in Pakistan, in Japan, and the 
Philippines, to operations providing stability and assurance to 
our friends and allies around the globe, the Navy's aircraft 
carrier force provides the combatant commanders [COCOMs] with a 
first, a flexible, and a sustained response that can be scaled 
to meet the Nation's needs around the globe.
    George Will summed it well in a recent column:
    ``The Navy's operations, on which the sun never sets, are 
the nation's nerve endings, connecting it with the turbulent 
world. Although the next president may be elected without 
addressing the Navy's proper size and configuration, for four 
years he or she will be acutely aware of where the carriers 
are.''
    Consistent with the 2007 National Defense Authorization 
Act, the 308-ship Navy outlined by the CNO's Force Structure 
Assessment, includes a requirement for 11 aircraft carriers. 
With the inactivation of the USS Enterprise [CVN 65] in 2013 
and pending the delivery of Gerald R. Ford, CVN 78, in 2016, 
the Navy is operating at a deficit with a 10-carrier force. 
This will effectively be the case until the Ford is ready for 
her first deployment currently projected in 2021.
    In the interim, balancing presence and surge requirements 
with a 10-carrier force has become more challenging with 
increased combatant commander demand for carrier presence 
during the same period. The Navy has adjusted maintenance and 
operational schedules by extending carrier deployment lengths 
to mitigate operational impacts during this period.
    This increased frequency and duration of deployments, 
however, has resulted in increased maintenance and repair 
requirements back home such that not only have deployments been 
extended but so, too, the time required in a shipyard to make 
ready for the next deployment. These challenges have been 
further exacerbated in recent years by the budget uncertainty 
and impacts caused by sequestration.
    The net effect of operating with fewer than 11 aircraft 
carriers for an extended period of time, is a degradation to 
the Navy's ability to provide the balanced presence and surge 
capacity. So to provide much needed stability across the 
spectrum of maintenance, training, and operations, the Navy is 
implementing what is referred to as the Optimum Fleet Response 
Plan, or O-FRP.
    In simplest terms, the O-FRP targets improved planning and 
discipline for the conduct of maintenance and training in 
support of carrier and amphibious groups deployments. Adherence 
to the plan helps balance the tension between the demand for 
presence and need for surge capacity, which will be greatly 
relieved with the entry of Ford in the deployment cycle.
    The Ford, the first new design aircraft carrier since the 
Nimitz more than 40 years ago, will bring a significant 
increase in carrier capability to the fleet: 33 percent 
increase in the rate at which we launch and recover aircraft; a 
propulsion plant three times the electrical generating 
capacity, and 25 percent more energy than Nimitz; increased 
service life allowances for power, weight, and stability to 
enable future modernization; increased survivability; improved 
combat systems, firefighting systems, weapons handling, and the 
basic hull design. And importantly, a $4 billion reduction per 
ship in total ownership cost over the ship's 50-year service 
life.
    Those members who have visited the Ford under construction 
fully appreciate the daunting numbers that measure her. Tens of 
thousands of tons of structure, thousands of miles of cable and 
fiber optics, hundreds of miles of pipe, thousands of 
compartments, hundreds of ship systems, tens of thousands of 
sensors integrated to drive a greater than thousand megawatt 
nuclear power plant across the globe to its life. It is a 
remarkable demonstration of what American industry is able to 
achieve, and it is a quantum increase in capability for our 
warfighter, capability required by our Navy in the century 
ahead.
    To be clear, the challenges associated with concurrent 
development, design, and construction of the advanced 
warfighting aviation and propulsion systems on [CVN] 78, has 
resulted in cost growth and some delay. Cost growth has been 
arrested, was arrested early in the ship's construction, and 
today, with the ship's design effectively complete and 
production near 95 percent complete, we are focused on 
completing the test program and delivering the ship next 
spring.
    Equally important, while we confront the impacts associated 
with concurrency on the [CVN] 78, we made essential changes to 
eliminate these causes for cost growth and further improve 
performance on CVN 79 and 80.
    In summary, the Navy is committed to providing the Nation 
with a force needed to perform assigned naval missions around 
the world, around the clock, every day of the year. From 
peacetime presence to crisis response to power projection, the 
carrier is the backbone of that force. We are working with the 
Joint Staff and combatant commanders to mitigate impacts to 
operations and maintenance in response to current demands 
during this 10-carrier period, while we also work to improve 
performance of new construction and maintenance to restore the 
11-carrier force, and with it, our ability to fully meet our 
presence and surge commitments, and we look forward to your 
questions.
    Mr. Forbes. Secretary, thank you for your comments.
    [The joint prepared statement of Secretary Stackley, 
Admiral Aquilino, Admiral Moore, and Admiral Manazir can be 
found in the Appendix on page 41.]
    Mr. Forbes. It is my understanding, Admirals, that none of 
you have opening statements that you wish to make at this 
particular point in time.
    I am going to defer my questions to the end because I have 
a number of them, but Mr. Secretary, if I could just ask you. 
You have got a very impressive team with you today. Could you 
just let all the two subcommittees know about the team you 
brought with you today, and then as soon as you have done that, 
I am going to ask Mr. Courtney for any questions that he might 
have.
    Secretary Stackley. Yes, sir. Thank you. I refer to these 
as our aircraft carrier brain trust. To my far left is Rear 
Admiral Manazir. He is our requirements officer on the CNO 
staff responsible for naval aviation, both carrier force as 
well as the aviation side of the carrier force.
    Rear Admiral Tom Moore is the program executive officer for 
carriers. He is responsible for construction and in-service 
complex refueling overhauls, lifecycle support for our aircraft 
carriers.
    And Vice Admiral Aquilino is our head of operations for the 
Department of the Navy, working directly for the CNO as well as 
working closely with the Joint Staff.
    Mr. Forbes. Mr. Secretary, all three admirals have had very 
impressive careers, done a lot for our country, as have you, 
and we just appreciate their presence here today. And with 
that, Mr. Courtney is recognized for any questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman and to the witnesses 
for all joining us here today.
    Again, Secretary Stackley, as usual, you gave a great sort 
of chronology and update regarding what is going on with the 
carrier fleet. I guess, you know, the question I think that is 
on a lot of people's minds is, though, that these necessary 
adjustments that the Navy has had to make in terms of the 
maintenance, new maintenance program, and as well the somewhat 
of a delay for the Ford because of the shock trials. I mean, we 
actually now have parts of the world where carriers used to be 
that aren't there anymore, at least for some periods of time.
    So maybe you could just sort of, for the record, again, 
just kind of talk about, you know, what those gaps, as the 
media calls it, or you know, the impact that this is having 
right now?
    Secretary Stackley. Sir, I am going to turn to Admiral 
Aquilino to address that because he specifically has been 
working this issue on the Navy staff.
    Admiral Aquilino. Good afternoon, sir. Thank you for the 
question. As you know better than anyone, the carrier force 
today is the centerpiece of the Navy's deterrence factor, power 
projection, lethality, and across the globe provides the 
presence needed to deter conflict, which is our primary goal.
    We are at a position now in time where due to prior, what I 
would call, overutilization, we are not at a position where we 
can push forward the amount of carrier presence we would like 
in a sustainable affordable manner, as well as keep in the 
reserve tank some surge capacity to be able to respond to 
crisis when needed. That is due to a number of reasons.
    Admiral Moore will probably talk later about the fact that 
we are currently at 10. Eleven is the number that our force 
structure analysis tell us we need.
    Based on the fact that we are at 10, that puts us at an 
ability--or not at the ability we need to push what we would 
like forward. Additionally, we severely overused the carrier 
force throughout the years 2011, 2012, and 2013 when we 
maintained a 2.0 presence in the central--in the, excuse me, 
the Middle East, while at the same time providing presence to 
the Pacific where it is also needed, and that has put us in a 
place where we are a little bit behind the power curve.
    What we are trying to do now is to reset in stride. We have 
to do that because very little chance to achieve a peace 
dividend from a force that doesn't go back into garrison. So 
our operate forward priorities did not give us the, really the 
opportunity to come back and reset. So the Navy is present, as 
you know, each and every day forward at almost the same levels 
that we have been operating over the past 15 years.
    So the plan we have developed is figure out how to provide 
as much presence as we can sustain and afford, while at the 
same time resetting to get to the CNO's stated goal of two-
plus-three carriers hopefully by 2020. Those short periods 
where we can't provide presence are kind of--it is kind of the 
bill we are paying now to get to that sustainable level we 
need.
    Mr. Courtney. And I think Secretary Stackley used the term 
balancing in terms of trying to, again, deal with what is a 
long overdue need, which is to get, like you said, a 
maintenance schedule that is in stride, but also balancing, 
obviously, the demands that are out there. And I guess the 
question is, you know, you are going to be showered with 
demands, and you know, it is going to take discipline to sort 
of maintain this for the next 3 years or so. I mean, do you all 
feel confident that, you know, we are going to be able to get 
through this patch, and again, accomplish the goals of having a 
fleet that is ready to again meet all the requirements that are 
out there?
    Admiral Aquilino. So before the Secretary jumps in, we are 
confident that our model and our plan, sir, will get us to 
where we need to be. Absent the fact that the world gets a 
vote.
    Mr. Courtney. Right.
    Admiral Aquilino. So with that, sir.
    Secretary Stackley. I was going to punctuate his comment 
that it's a hypothetical in terms of what crises the Nation is 
going to deal with and there is going to be a continual 
rebalance of the risk. Today we are at 10. We are at 10 
carriers, I think it is important to understand where are the 
carriers today.
    Four of the carriers are in deep maintenance today. We have 
a carrier in RCOH [refueling and complex overhaul], the other 
three carriers in depot that are going to be tied up in the 
depot for a period of time. A fifth carrier, the George 
Washington, is coming back to the States to enter her RCOH, so 
she is not available. She will not be available for surge, so 
you have five carriers then that are carrying on the operating 
cycle, and they are going to be rotating through their 
deployments.
    So the question that you ask regarding will we have the 
discipline to maintain our maintenance cycle and support--you 
know, maintenance, training, operational cycle to get the 
health of the force back up, we are operating a small number of 
carriers, low density, high demand, and if the temperature 
rises in a risk area around the world, then senior leadership 
is going to have to decide is it more important to do that 
maintenance, which is a long-term investment, or do we have to 
respond today to the immediate crisis? And that is going to 
come down to what the nature of the crisis is.
    Mr. Courtney. I guess that is my last question. So again, 
if the balloon goes up or there is some real imminent crisis 
that threatens our Nation, I mean, there is a way that you can 
sort of plug things up and move carriers out, even those that 
are tied up back home in repairs?
    Admiral Aquilino. From an operational standpoint, sir, I 
think if the balloon goes up, we will, as the most flexible 
agile force out there, figure out how to get it done. That will 
accept some risk on our part with regard to the levels of 
training of the forces that we would have to push and the 
timelines in which we would have to push them, but I am pretty 
confident we would be able to button some of them up, not all 
of them.
    I won't speak for my buddy next to me, the maintainer. It 
is pretty hard to button up a carrier in RCOH, but there is 
others that are at certain levels where we would be able to 
accelerate their getting them to sea.
    Admiral Moore. Sir, I think, you know, part of the answer 
to the question is could you do it? Yeah, you could do it once. 
Part of the challenge is, you know, we have these carriers, 
they are designed for 50 years, and right now we are operating 
them at a pace faster than they were designed. And I think not 
only the sustainment of the carrier but you can see the impacts 
on the industrial base today. So could we do it? Sure, we could 
do it once, but my analogy is kind of like I couldn't run a 4-
minute mile. I might be able to run at that pace for 100 yards, 
but then I would run out of gas.
    And these ships right now, and you can see the impacts with 
the Eisenhower and some of the other carriers. Right now, we 
are consuming the service life of these ships at a pace that is 
faster than they are designed, and eventually you are going to 
use up that service life, and then we will be in a situation 
where they won't make it to 50 years, and then the domino 
effects from that will really cause us significant problems 
downstream.
    Mr. Courtney. I want to thank all of you for your testimony 
and your service. I yield back.
    Mr. Forbes. Before we go to Congressman Wittman, can we 
clarify what we just said? We said ``we could do it.'' Tell us 
what ``do it'' means and what risk we have to do it, because 
when you are doing these deep maintenance on these carriers, I 
take it you don't have sailors that are sitting there doing 
their training and they are sitting on the carrier at that 
particular point in time.
    So what would you have to do if, as Mr. Courtney asked, you 
needed to send one of these carriers out, where are you going 
to get the sailors and the training, and what risk is it to 
those sailors to go out there if they don't have that training 
and they are not prepared at that particular point in time?
    Secretary Stackley. Yes, sir. I am glad you asked the 
question. As I walked through and described, we have got four 
carriers in some level of maintenance from RCOH up to----
    Mr. Forbes. And Mr. Secretary, we know what RCOH means.
    Secretary Stackley. Okay.
    Mr. Forbes. Can you, just for the record, make sure we are 
clarifying that. Try to stay away from acronyms----
    Secretary Stackley. Yes, sir.
    Mr. Forbes [continuing]. As much as possible because we are 
using this record later.
    Secretary Stackley. The refueling complex overhaul for a 
carrier once in its midlife, it is about a 44-month depot 
period where you open her up and refuel her, as well as, do 
about a third of the total modernization that the ship will get 
in its lifetime, so it is down hard. You are not going to pull 
a carrier out of an RCOH.
    And then you have other availabilities that are not as 
invasive, but they do bring a carrier down and you are not 
going to be able to pull a carrier right out. You are going to 
have to restore systems, and at the same time you are restoring 
systems, you have got to rebuild the crew because when a 
carrier goes into a depot period, there is a lot of turnover of 
the crew and they are not ready to go out and start operating. 
They have got to go through their re-certifications to ready 
for sea, and then a carrier comes with the air wing. You also 
have to integrate the air wing back on the carrier.
    So there is a very disciplined maintenance, training, 
operational cycle that we are trying to return to with the O-
FRP. So the carriers that we have in deep maintenance today, 
could we pull one or two out and make it available? Maybe, but 
there is a timeline that you have to deal with, so you will not 
get the response that we have committed to in the two-plus-
three regimen that the CNO has referred to, which is two 
carrier presence, plus three surge capable within a very 
limited window of time, which is factored into our operational 
plans for major combat operations.
    We would be delinquent to providing that, depending on 
which carriers you pull out and how long it takes to button the 
carrier back up, get its systems operational again, and then 
integrate crew and air wing, get it ready to deploy.
    Mr. Forbes. And I don't want to be facetious, but it is not 
like we are just putting gas in a tank and we just have to pull 
the hose out and put it back in the pump and call everybody 
back, get on the ship. And we are talking about months of 
training, preparation, putting crews together, getting 
airplanes on, so during that month period of time, we still 
have huge gaps in our operational plans where we wouldn't have 
the carrier surge, fair?
    Secretary Stackley. Yes, sir.
    Mr. Forbes. Good. Mr. Wittman is recognized for any 
questions he may have.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us today, and thanks for your service to 
our Nation.
    Admiral Manazir, I wanted to jump away from the ship itself 
to a critical element of the ship, that is, our air wings. And 
as we are going from 10 to 11, as we are bringing Ford on, the 
question is, do we have the complementary aircraft to make sure 
that they are available so as Ford becomes available, we make 
sure that we have all the full complement across the spectrum 
of our carriers to make sure the aircraft is there?
    I know that we look at our F-18s; we are transitioning too, 
to the F-35. Give me your perspective on where we are with the 
number of necessary aircraft to make sure we have full 
operational capability for all of our aircraft carriers, and 
then where are we with number of F-18s on the deck, and then 
where are we with the transition from F-18 to F-35?
    Mr. Manazir. Yes, sir, Congressman Wittman. Thanks very 
much for the question. You have rightly pointed out that a key 
relevance of our aircraft carrier is the air wing on top. As 
the committee knows, we retired USS Enterprise in 2012 after 51 
years of service. The air wing that was on top of Enterprise in 
the Cuban missile crisis was vastly different than the air wing 
that was on top when we retired her in 2012, and the relevance 
in the fights that--the conflicts that we have had is that 
force.
    The short answer to your question, yes, sir, we have enough 
airplanes to source 11 aircraft carriers when Ford comes 
online. Part of my job is to build that force and to afford 
that force. Right now we have a current readiness problem in 
our F-18Cs, and as I testified before, because of the extension 
of the F-35 program to the right, we have had to sustain our F-
18Cs far longer than we had planned on.
    Because we are sustaining them past 6,000 hours of their 
service life, we are running into problems with corrosion 
internal to the airplane that we had not seen or planned, 
because we hadn't planned to take them past 6,000 hours. So our 
near-term readiness problem is getting enough F-18Cs out to 
source our carrier strike groups that deploy.
    What we are seeing right now is we have enough to send out 
F-18Cs on deployment, and we are taking--well, we have less 
airplanes than we need in the earlier phases of our fleet 
response training plan, so we are taking readiness hits there. 
So the forces back here at home cannot train enough because 
they don't have enough assets. So we are, in the vernacular, 
taking risk here at home to make sure that we have deployed 
assets.
    Our F-18Es and Fs, sir, are the majority of our force going 
to 2035. We might even fly those airplanes close to 2040. They 
are relevant, very, very good airplanes, and when coupled with 
the F-35C coming off the carrier deck, form the most potent 
airplane combination of any force that is out there, and so 
keeping that F-18E, F, relevant all the way through past 2035 
is key.
    The Navy plans to IOC, initial operational capability, the 
F-35C in August of 2018. We will have enough squadrons to 
outfit over half of our carrier force with F-35Cs, 
complementing the F-18Es and Fs. We will have a predominant F-
18E and F force to 2035 with a single F-35C squadron in every 
air wing by then. That complementary capability is going to 
give us the warfighting power that we need.
    Mr. Wittman. I know, as I visited the depots where the work 
is going on in F-18s, that there is a pipeline issue there, 
too, where we need to get more aircraft through there. Isn't 
there overall, though, a strike fighter shortfall, and doesn't 
that create a significant problem with that backup in the 
depots, as you said, trying to get those [F-18] C aircraft out 
and where the demand is, and if there is a backup there, to me, 
it does create a problem, and there is an issue about the 
number of strike air aircraft that we have.
    Mr. Manazir. Yes, sir. As we testified, we have a strike 
fighter inventory management challenge because if you look at 
the demands on the strike fighters into 2030, we have a 
shortfall. I can say that shortfall in the early part of the 
2020s is about 138 airplanes; so we are taking measures to get 
the depot to be more efficient, near term, and then to acquire 
more airplanes to source that shortfall.
    There are two reasons for the near- to mid-term shortfall. 
The first one is the extension of F-35 has caused us to have to 
extend the F-18Cs from 6,000 hours to 10,000 hours. That work 
was the level of work done to each airplane was unplanned in 
the depot.
    The second thing that we haven't done is procured enough 
airplanes to offset the amount of flying we have been doing to 
what Vice Admiral Aquilino talked about the use of our 
carriers. CNO Greenert testified a year ago that we need two to 
three squadrons of Super Hornets to offset the attrition loss, 
the hours that we have flown those airplanes. That is 24 to 36 
airplanes.
    When you infuse 34 to 46 new airplanes into this mix, plus 
to get the depot to be more efficient, sir, that gets a long 
way towards getting at that strike fighter inventory management 
challenge, the shortfall if you look at supply, demand, and 
usage.
    If we also acquire enough F-35Cs starting in the latter 
part of this decade in this Future Year Defense Plan, you will 
now be able to manage to the warfighting requirement that you 
talked about, getting out to those 11 carriers and having the 
combat capability that we need. But it is a challenge we are 
addressing, sir, with all of our might in the Naval Aviation 
Enterprise.
    Mr. Wittman. I understand with adding more Super Hornets 
and being able to make up that shortfall, regardless of how 
quickly we can get the depots to respond with efficiencies, but 
can we, and is the capability there to move the F-35C to the 
left to make that up? So the question is, is it a situation 
where we may need more Super Hornets because you can't get 
enough F-35Cs to the fleet, or is it a reality that you can do 
both?
    Mr. Manazir. Sir, we are looking for both. My definition of 
the near-term problem or mid-term problem of F-18Es and Fs is, 
if we acquire F-18Es and Fs, 2016, 2017, and 2018, 36 
airplanes, 2 to 3 squadrons, and we IOC the F-35C on time in 
August of 2018, with Block 3F software, that we will get at the 
combat capability you are talking about.
    Sir, we can certainly accelerate F-35 platforms to the left 
and buy those, but they are not the capability that the Navy 
wants. We specifically want 3F software. CNO Greenert testified 
to that, and CNO Richardson has committed that that airplane 
with Block 3F software is the capability that we need on our 
carrier flight decks to support the integrated capability we 
bring to the rest of our air wing. So yes, sir, we could buy 
airframes, but they won't be the capability that the Nation 
needs.
    Mr. Wittman. I think that is the key to understand is the 
current capability with E and F platforms, what you would have 
are the 35Cs to make sure we got that complementary capability 
there.
    Let me ask you this in closing. You talk about making the 
depots more efficient. To me, there is still a pipeline issue 
in the aircraft that we have to move through the depots to make 
sure we meet demand currently, not out into 2017, 2018, and 
2019, but currently. Tell me where we are with making sure that 
efficiency is going to be there because that creates a short-
term issue.
    Mr. Manazir. Yes, sir. This gets a little bit complex, but 
I will simplify it for you. When we brought the initial bunch 
of airplanes into the depot, we applied a lean manufacturing 
model to the depot, and that means that when you bring an 
airplane in, you have a kit that you are going to replace parts 
in the airplane, and the mechanic, the artisan takes a new 
part, replaces an old part, moves the airplane along. When we 
opened up these F-18Cs, given that we extended them past 6,000 
hours, we found that there was so much corrosion in there, that 
too much engineering work could be done.
    So in stride, we have changed that process to something 
called Critical Chain Process Management, which is looking at 
the actual constraint for each airplane, assessing where that 
constraint lies, and then attacking the constraint. We have 
been underway in that process now for a year. We have already 
increased the depot throughput by 40 percent. We expect it to 
get even greater than that to where we have delivered somewhere 
on the line of 30 airplanes from the depot a year ago. We are 
looking to deliver 104 airplanes a year from now.
    So yes, sir, we are getting our feet under us. We had to 
change the whole process to understand what kind of an 
engineering problem we have. Thank you.
    Mr. Wittman. Very good. Thank you.
    Secretary Stackley. Can I--I just wanted a little bit of 
clarification. First, Admiral Manazir described what we are 
doing in terms of increasing throughput at the depots. Part of 
that has been bringing on additional engineers and artisans, so 
we have, in fact, increased the hiring to help that throughput; 
but we have also turned to Boeing as a facility with the 
expertise and the tooling required.
    So we are looking to pull the right levers to increase that 
depot throughput. Today, we cannot--we cannot accept the 
numbers that we are suffering through today, and so when 
Admiral Manazir talked about the projected shortfall in the 
2020s, we have got to improve upon the depot part of the 
equation to do better than that.
    The other piece in terms of procurement, he described the 
F-35C. Just to clarify, the 2018 initial operating--operational 
capability for the F-35C for the Navy, that is with 3F 
software. F-35Cs bought in 2016 will deliver in 2018 in the 3F 
configuration. That is a software configuration.
    So the aircraft we are procuring will have the hardware 
necessary to support the software. The issue is we haven't 
crossed that bridge yet.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Mrs. Davis is recognized for any questions she 
might have.
    Mrs. Davis. Thank you. Thank you very much all of you for 
being here and your service.
    Getting back to the issue of the number of air wings for 
the 11th carrier as it comes online. Did I understand, are we 
still behind in terms of that last air wing?
    Admiral Manazir. No, ma'am. We have a model. We have 10 air 
wings, and we resourced----
    Mrs. Davis. You have already----
    Admiral Manazir [continuing]. At 10 air wings. Yes, ma'am. 
We do a--we do a tiered readiness approach to deploying our 
forces. That is that as we get closer to deployment, the 
resourcing gets higher and higher. The way that we have had to 
manage our F-18C strike fighters is to take airplanes away from 
the earlier stages of the training, and that is what the effect 
has been to this depot throughput that Secretary Stackley 
talked about, the challenge that we have had and that I have 
relayed, but we can resource a number of air wings we need to 
deploy our carriers.
    Mrs. Davis. And the number--and the personnel that is 
required as well, is the recruitment going in such a way that 
we know that we are going to have the pilots when we need them?
    Admiral Manazir. Yes, ma'am. We have exceeded. The Chief of 
Naval Personnel will tell you that we are exceeding our 
accession goals and we are exceeding our retention goals for 
the force that we need across officers and enlisted, but we 
definitely have enough people to resource all the air wings and 
the carriers that we are pushing forward.
    Mrs. Davis. Is there anything about that that still 
concerns you?
    Admiral Manazir. I think retaining our talent is always a 
concern, making sure that the Navy rewards our sailors and our 
officers and chiefs for doing the job that they do. We can't 
adequately reward them because of the load, and we try to find 
ways to motivate them to stay. Obviously, when a new sailor 
comes in, we have to train them, and then that person has to 
get expertise in order to work for us, so always retaining the 
right kind of talent, retaining that high level of talent of 
our young Americans is a concern, but keeping the numbers, no, 
ma'am, I am not concerned about that.
    Mrs. Davis. Because at one time we were using more bonuses. 
You are not doing that now?
    Admiral Manazir. I have to defer to the Chief of Naval 
Personnel on the bonus structure for retention, but I will tell 
you that the report to us is that we are meeting all our 
retention and accession statistics.
    Mrs. Davis. Okay. Great. I wanted to just move to the fleet 
response time, Optimized Fleet Response Plans, and how they 
affect carrier availability as well. We are first--more or less 
into this first cycle, but what is it again, what concerns you 
the most about that, how quickly could mitigation measures be 
put in place if the carrier strike group maintenance gets 
behind schedule.
    Admiral Aquilino. Thanks for the question, ma'am. I will 
talk a little bit about the operational aspects and defer to 
the maintenance questions. But the key portion of the Optimized 
Fleet Response Plan is that it synchronizes all the things 
needed to produce an aligned, fully trained, ready carrier 
strike group, and to include the air wing, trained to execute 
the high-end fight when it is needed, and it is predictable to 
the sailors and the people who resource it.
    It aligns maintenance, training, supply, ordnance, and nine 
aspects that we have identified required to get that strike 
group out on time, again, trained to the high end. So we are 
confident that this will work. We have already seen aspects 
that we have implemented shorter portions of it to some of the 
strike groups, and the Eisenhower will be first one from start 
to finish out the door, deploys in 2016, comes back in 2017. I 
think we are on a good path.
    Admiral Moore. Yes, ma'am. As far as the maintenance goes, 
I think it is--you know, when we put the O-FRP together, we 
made a conscious decision to put the maintenance piece first in 
recognition that getting maintenance done as scheduled and 
getting it done on time was a key part of the O-FRP, if not, 
the most important part.
    I think that we have seen here recently as a result of 
being down at 10 carriers and having to run carriers at a pace 
that they were--faster than they were designed for. For 
instance, the Dwight D. Eisenhower, which just finished a 24-
month availability, which was only scheduled for 14 months. She 
had deployed four times since 2008 with only one maintenance 
availability in there, so much faster than we had designed, 
consuming the service life of that ship much faster, so it is 
really no surprise. I think that you saw some of the impacts 
there.
    We have got to get our arms around that. We certainly spent 
a lot of time looking at Eisenhower to figure out where we can 
do better going into maintenance periods. We appreciate the 
support of the Congress and some resources to add personnel at 
our naval shipyards. That is certainly going to help. But going 
forward, you know, getting back 11 carriers is one of the ways 
to get back into a maintenance cycle that will be sustainable 
and then will support the O-FRP.
    Mrs. Davis. Great. Thank you. Secretary Stackley, you just 
briefly mentioned the budget deal, and I just--is everybody 
breathing a little bit easier? Does that make a difference in 
terms of moving forward?
    Secretary Stackley. I think it makes a huge difference 
because for at least the next 2 years, the next two cycles, we 
will know what our top line is, and we will have some certainty 
going into the next year. Uncertainty is a killer when it comes 
to planning, when it comes to execution, and you make poor 
decisions when you don't know what your budget top line will be 
and when you will receive it.
    So as I described it, we didn't get the full amount of the 
President's budget request. We are going to work with you all, 
obviously, to adjust, but having some certainty for the next 2 
years goes a long, long way in terms of execution.
    Mrs. Davis. Thank you.
    Mr. Forbes. Mr. Conaway, the gentleman from Texas, is 
recognized for 5 minutes.
    Mr. Conaway. Thank you. I am on the Seapower Subcommittee 
because I am landlocked. I don't have a boat. I don't have a 
dock. I don't have a homeport. I don't have nothing. Till 2006, 
we tried this two and three issue with 12 carriers, and now we 
are trying to squeeze a square peg in a round hole with 11 
carriers, or 10 carriers. Can you talk to me--I don't know, Mr. 
Stackley or who--about did the development of the two deployed 
three surge concept, did it predate Putin's surge, and we 
talked about the balloon going up. I would rather keep the 
balloon going up with a deterrence factor, so how do we deter 
Putin in the Atlantic and the Med and deter China in the South 
China Sea, and keep something of the Persian Gulf. That looks 
like three versus two, so can you talk to me, what would be the 
history of the two plus three, and then how do we deter Putin 
and reassure our NATO [North Atlantic Treaty Organization] 
allies that we are there where we need them, and when we are 
needed.
    Admiral Aquilino. Sir, thanks for the question. I will walk 
you through a little bit, I think, on how we view the 
deterrence portion, and don't have the history back to that far 
on the two plus three. But for the deterrence portion of your 
question, the Cooperative Strategy for the 21st Century that 
was signed in March by the CNO, the Commandant of the Marine 
Corps, as well as the Commandant of the Coast Guard, takes a 
view of the maritime concerns that exist and how the Navy will 
contribute to that deterrent requirement.
    We are globally deployed, as you know, all the time, to all 
the AORs [areas of responsibility]. We have a forward-deployed 
naval force in the Western Pacific, compromised of the Ronald 
Reagan strike group, specifically. We currently are--George 
Washington is coming around. The South America just went 
through the Straits of Magellan, participating in UNITAS 
[annual multilateral exercise] with our South American 
partners. We have ballistic missile defense ships forward 
deployed to Rota, Spain, in support of the deterrence against 
the Russian piece.
    Mr. Conaway. I know I am over here talking about carriers. 
So how--is it time to relook at the two plus three since 
nobody--does anybody on the panel know what the history of two 
plus three is, or how we got there? Mr. Stackley.
    Secretary Stackley. It actually--I am going to say it was 
three plus three just shy of a decade ago.
    Mr. Conaway. Okay.
    Secretary Stackley. About the 2007 timeframe. And this--the 
numbers are derived from operational planning and the force 
that would be required to win major combat operations in the 3-
0 plan.
    Mr. Conaway. And so in that timeframe was--where was Putin 
and his aspirations?
    Secretary Stackley. Like I say, sir, this goes back to the 
2006, 2007 timeframe, and it has evolved over time.
    Mr. Conaway. Yeah, yeah. Is there a group in your team that 
looks--that from time to time steps back and relooks at the 
conventional wisdom to say, when that was done a decade ago, 
when we set on two plus three, and we've held that through two 
different administrations, and now we are trying to justify 
that with 11 carriers that we might have at something--or 10 we 
got now, 11 we will have in 2019, 2020, 2021, whenever the Ford 
comes online. Is there a group that red-teams that to say, you 
know, we really--given that Putin is out there, we need three 
plus three or three plus two, what is it--is there somebody 
that does that?
    Admiral Aquilino. Yes, sir, the combatant commanders are 
responsible to identify the forces they need to meet the goals 
for deterrence and then ultimately to be able to respond to 
crisis----
    Mr. Conaway. So General Breedlove would tell us that he 
doesn't need--he would not prefer a carrier somewhere in the 
Atlantic or the Med?
    Admiral Aquilino. So the combatant commanders via our 
global force management process have identified their 
requirements. Those get supported by the services, and then 
allocated per the Secretary of Defense.
    Mr. Conaway. Yeah. I know you guys make hard choices. I got 
it. We limit your resources and try to make you squeeze all 
kinds of stuff out of it, but I guess I have got to ask for the 
record, would 12 carriers make this overall two plus three and 
the maintenance and the deployments and the training and the 
aircraft and all the other kinds of things that you are talking 
about, wouldn't it be easier with 12 than 11?
    Secretary Stackley. Straight math, yes, sir.
    Mr. Conaway. Okay.
    Secretary Stackley. Straight math. The reality is, the 
larger the force----
    Mr. Conaway. Yeah, I know----
    Secretary Stackley [continuing]. The more flexible you have 
got, and then the issue is how do you afford that.
    Mr. Conaway. Yeah, I know, I got you.
    Secretary Stackley. Yes, sir.
    Mr. Conaway. I got you. But I do think, at some point, 
justifying the two plus three in today's world--because I would 
argue that the world is not as safe today as it was in 2006 and 
2007. China wasn't doing what it was doing, Russia is not doing 
what it is doing, and so--and maybe we need a review of that 
whole issue to see if we are, in effect, doing our country the 
right way by at least saying we need that third carrier on 
the--you know, out at any one point in time.
    So I appreciate you guys being here, great service to our 
country. I am awed by the distinguished careers each of you 
have had, so thank you for what you have done for our country 
and your families putting up with all that time being away from 
them. So thanks on our behalf as well. I yield back.
    Mr. Forbes. Mr. Conaway, thank you. And I was going to 
defer my questions to the end, but I want to clarify a couple 
of questions Mr. Conaway had just asked you.
    Are we going to have a gap in our carrier presence in 
either the Pacific Command [PACOM] or the Central Command 
[CENTCOM] this year or next year?
    Admiral Aquilino. Yes, sir. We currently are experiencing 
what the CENTCOM commander would call a gap in the CENTCOM AOR.
    Mr. Forbes. And what he would call a gap is actually a gap, 
isn't it?
    Admiral Aquilino. It is a----
    Mr. Forbes. It is not like we are talking about 
terminology, syntax that's different than we won't have a 
carrier there. That is a gap, fair?
    Admiral Aquilino. Yes, sir.
    Mr. Forbes. And coming back to what Mr. Conaway says, has 
the United States Navy ever made the determination that the 
presence of a carrier--of an aircraft carrier strike group has 
a significant role in deterring a conflict from going to phase 
zero to phase three?
    Admiral Aquilino. Yes, sir. Again, deterrence is one of the 
key missions.
    Mr. Forbes. And it is a significant deterrence?
    Admiral Aquilino. I believe so.
    Mr. Forbes. Well, let me clarify.
    Secretary Stackley. I will go so far as to say that it is 
at the very core of our maritime strategy for national 
security.
    Mr. Forbes. And the reason that we can know that is because 
you have no single unit that is more expensive, requires more 
resources to deploy than a carrier strike group, isn't that 
fair to say, in the national defense of this country, single 
unit?
    Secretary Stackley. I'm not putting dollars against that. I 
am talking in terms of resources and capability that the 
carrier provides on scene.
    Mr. Forbes. And the reason that I am saying that is because 
one of the things you guys come in to tell us always is the 
role we have to do in balancing what we have, the resources we 
have. So when you come in here and say that we need a carrier 
strike group, as Mr. Conaway said, we need two, and be able to 
surge three, the reason we need that is because it is so vital 
and so important that we place one of the most important and 
costly resource allocations we have, to try to deter that 
conflict from going to phase zero to phase three. Is that a 
fair statement? I see some nodding of heads, but for the 
record, Admiral Manazir?
    Admiral Manazir. Absolutely a fair statement, sir. There is 
no replacement for a carrier strike group in any phase of any 
kind of conflict. There are multiple examples of when a carrier 
strike group was put in place to deter. Cuba in 1961; 1996, 
through the Taiwan Strait, two carrier strikers were sailed 
through there. The deterrence factor to the United States is 
significant, the carrier strike group, and no, sir, because of 
the resources the Nation puts into the carrier strike group, 
which is not only the carrier but the five destroyers, cruisers 
that go with it and all the people that go into that, it is 
worth that deterrence factor. Yes, sir, no replacement.
    Mr. Forbes. And the last part of that question is, the 
United States Navy has also made the determination that the 
ability to surge three more carriers is incredibly important to 
us being able to win a conflict if that conflict were to 
actually go from phase zero to phase three. Is that a fair 
statement?
    Secretary Stackley. Absolutely.
    Mr. Forbes. Good. With that, I would like to recognize Mr. 
Larsen for 5 minutes.
    Mr. Larsen. If you all ever get around to building a 12th 
carrier, we will take it in Everett [Washington]. So I think it 
is Admiral Moore. Can you--we covered the two RCOH carriers. We 
didn't cover the three depot maintenance carriers. Could you 
give us a flavor of what that schedule looks like?
    Admiral Moore. Well, right now, you have got Abraham 
Lincoln in RCOH at Newport News Shipbuilding. You have got USS 
Nimitz in a 14-month availability in Bremerton. USS Carl Vinson 
down in San Diego for a 6-month availability down in San Diego. 
You have got USS George H.W. Bush at Norfolk Naval Shipyard 
right now with an 8-month availability at Norfolk, and then as 
the secretary alluded, you have right now USS George Washington 
returning from Japan to commence a refueling overhaul in August 
2017. She will go back to Norfolk in December 2015, essentially 
she doesn't have enough gas in her tank to really--is a 
deployable asset.
    Mr. Larsen. Right.
    Admiral Moore. So you really have got those--in addition to 
Lincoln, you have got those three other carriers plus George 
Washington right now that is not available to us.
    Mr. Larsen. Yeah. And which of those are--which of those 
maintenance schedules are being pushed by a utilization that 
wasn't anticipated versus ones that are on schedule?
    Admiral Moore. Well, I think the ones--the Eisenhower is 
the one that we just finished, was the one that was 
significantly impacted by the pace that we ran the ship. Right 
now, it looks like Carl Vinson is doing fine, and as is George 
H.W. Bush. The one up in Bremerton, the Nimitz, is probably 
going to be the most challenging one to us for a couple of 
reasons. One, she is 40 years old. She is the oldest carrier 
ship of the class, so--and then, secondly, she has had a 
significant period of time where we've really run her at a 
higher op temp than some of the other carriers. So of the 
availabilities we have right now going on, I will tell you that 
the Nimitz, one that is in Bremerton, is the most challenging 
in terms of size and the work package it is on.
    Mr. Larsen. Has that added months to the maintenance 
schedule over than what was anticipated?
    Admiral Moore. Yes, sir. We actually, because of Nimitz, we 
were originally going to dock her this time. We decided to not 
dock her but put her in what is called an extended maintenance 
availability for 14 months, and then because of the run time of 
the ship we are going to deploy her, but we are going to bring 
her right back and put her back into a docking availability, so 
she is going to have, in the span of about 3 years, a 
significant amount of maintenance done on her to try and catch 
her back up, if you will.
    Mr. Larsen. And then she is due for decommissioning----
    Admiral Moore. 2025 is when she inactivates.
    Mr. Larsen. 2025.
    Admiral Moore. Yes, sir. That is when she will hit 50 
years.
    Mr. Larsen. Any of this driving by the--I think the 
Readiness Subcommittee had a hearing where Admiral Harley 
testified that the Ford was going to be delayed 2 years, even 
though it is being delivered in 2016 and goes to work in 2018, 
there is a little delay there.
    Admiral Moore. Well, there is no doubt that being at 10 
carriers, which is exacerbated by the fact that the Ford won't 
be now deployable till 2021, we will--you know, the law says 
you have to be 11 carriers, but it is only measured by when we 
commission Ford, and we will commission Ford next summer, but 
the reality is she is not a deployable asset now because of the 
way we are going to go test her until 2021, so we will be in a 
period of 10 carriers here until about 2021.
    Back to my initial comments, you know, when we inactivated 
Enterprise in 2012, that took us down to 10, and then that--in 
the last 3 years, in order to meet the demand signals of COCOMs 
and meet the present surge requirements, we have run carriers 
harder than we had typically done it and harder than they were 
designed.
    We have had--since 2012, had 7 aircraft carriers that have 
gone more than 300 days of deployed time between maintenance 
availabilities. Not all of it consecutive sometimes, but a lot 
of time, and that is an awful lot of run time, and that is a 
challenge that we are going to have to continue to face here 
until we get Ford on the line.
    Mr. Larsen. Yeah. Admiral Manazir, could you comment--I 
think I know the answer to this, but I think you probably would 
know it with regard to the 18Gs [EA-18G Growlers]. Do we 
anticipate those being--do we anticipate the Navy's 18Gs being 
the only air base electronic attack? Are we going to have the 
national mission and the expeditionary as well being carrier 
based, or is that what the Navy is anticipating, serving other 
services?
    Admiral Manazir. Yes, sir. So a couple of things in your 
question. The 18G Growler is the only Department of Defense 
airborne electronic attack platform that will be in service 
once the last of the Prowlers decommissions. The United States 
Navy has bought 153 Growlers. Thank you very much for the 
partnership there. We are completing a study to see if that is 
enough----
    Mr. Larsen. Right.
    Admiral Manazir [continuing]. Growlers for all of the 
missions that the joint force would carry out.
    Mr. Larsen. Right. Good. Thank you. Thank you, Mr. 
Chairman.
    Mr. Forbes. The gentlelady from Missouri, Mrs. Hartzler, is 
recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman, and appreciate 
hearing about the importance of the Growlers made in Missouri, 
and we certainly are trying to be supportive of making sure 
that you all have the assets that you need in that regard, so 
continue to work with us on that.
    I wanted to clarify about the USS Gerald Ford because at 
the subcommittee hearing that we had earlier, it said it was 
scheduled to be commissioned in the early half of 2016, but 
then due to the shock trials, it would be delayed an additional 
2 years, so that would be 2018, but then you are saying now it 
will be 2021 before it is commissioned?
    Admiral Moore. Yes, ma'am. If I could, just to clarify, we 
will deliver the ship and commission it next summer in 2016, 
and because it is the first ship of the class, it will have a 
series of initial operational tests and evaluation that we 
would have already done and that would have stretched out for 
several years to go prove that the ship does what we contracted 
the ship holder to do.
    So she was originally scheduled to deploy--her first 
deployment would have been in 2019, and now, because of the 
shock trial, we will now deploy her for the first time in 2021, 
so that is the delay I was referring to.
    Mrs. Hartzler. And I know that they said in August 2015 is 
when they wanted to have that shock trial, and I know it has 
only been a few months, but have we had any development on 
that? Have they arrived at that point yet to do any of those?
    Admiral Moore. We will shock her in summer 2019, August of 
2019, and we are making preparations to go do that now. We will 
bring her out of the yard. We will shake her down, and in our 
parlance, to make sure you kick the tires and make sure that 
you are getting what the taxpayer said that we were buying, and 
then we will go out and test her through a series of things for 
this brand new ship. And then we will go ahead and set her up 
and do a shock trial in the summer of 2019.
    Mrs. Hartzler. Okay. Well, it is concerning that it will be 
another 6 years basically, if I figure right, before we get to 
11 full carriers again, and so hopefully we won't need them, 
and the world stage will allow us to have that, only 10.
    But I wanted to talk more, and several people have already 
mentioned, but the maintenance situation. Of course, we had 
almost a 2-year maintenance on the Eisenhower after you have 
already talked about the extended service that it had that 
resulted in that, but has there been any lessons learned by 
these extended deployments to maintenance needs, that perhaps 
you can bring to the Gerald Ford in redesigning or to help 
decrease the amount of maintenance that is needed on the newer 
model?
    Admiral Moore. Yes, ma'am. Actually we spent an awful lot 
of time in the design of the ship trying to figure out how you 
could spend less time in maintenance and set the ship up so it 
would require less maintenance, so a couple of things. One, the 
Ford is designed to only have to dock the ship--dry-dock the 
ship every 12 years. We dry-dock the Nimitz carrier today every 
8 years, so over the life of the ship, that is two fewer 
dockings, that means more time available to the combatant 
commander.
    We looked at a lot--we used a lot of specialized materials 
on the ship that don't corrode as much, so a large portion of 
the maintenance we do on the carriers today involves opening up 
tanks, going in and blasting, coating, and painting those, that 
takes--spend an awful lot of time.
    The other thing that we did that I could point out to you 
is a large portion of the Ford class, the interior of the ship 
is air-conditioned, and while that may seem like a great thing 
and you say, hey, it is nice you are doing that for the crew. 
Actually the reason we have done that is because one of the 
largest sources of corrosion and maintenance that we do on the 
ship is the ingestion of salt air from the environment that we 
work in, and so we spent an awful lot of time redesigning the 
Ford to air-condition large portions of the ship.
    For instance, this is the first aircraft carrier that we 
have ever had that we will actually air condition the 
propulsion spaces, and the combination of that and then a 
redesign of the ship, which has resulted in the half number of 
valves on board, we took the steam systems which generate hot 
water on a Nimitz-class carrier, they are electric now, so we 
don't have steam piping running throughout the ship.
    So we tried to go back and take all the lessons learned off 
the Nimitz class, a very manpower-intensive ship, great class 
of ship, and rolled those into the Ford. So I think when you 
see the Ford get out there, we projected we will spend 
significantly less time in depot, which means the ship is 
available to the combatant commander and we will spend 20 
percent less on maintenance dollars.
    The last thing is the class--this class of ship is designed 
to only go into a depot availability every 43 months as to 
compared to a Nimitz-class carrier which is right now at 36, so 
you are--we won't put it into maintenance as much. When we put 
it in for maintenance, we will do less maintenance.
    Mrs. Hartzler. That is good to hear. Thank you very much. I 
appreciate it. I yield back.
    Mr. Forbes. The gentleman from Georgia, Mr. Johnson, is 
recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. In looking at how the 
carrier fleet may be updated, there is a greater focus on the 
use of automated systems to alleviate costs. What plans does 
the Navy have in terms of extending ship life and freeing up 
resources for other uses?
    Secretary Stackley. Let me start with the ship life itself. 
It is a 50-year service life on the aircraft carrier. And 
today, the ship is not designed for a service life beyond 50 
years. What we are trying to do is drive down the cost of 
getting it to 50 years. So the automation that you described, 
that is a critical component of that strategy because a big 
part of your cost in service life is the cost of people.
    And so to drive down the size of the crew on an aircraft 
carrier, we have converted to first reducing the maintenance 
load that the crew has to perform, but also relying on 
automation. Where a sailor in the past might have taken a 
particular action, now we are using automation to relieve that 
burden from the crew.
    So in total in terms of the ship's force itself, 600 
sailors come off of the comparable number that puts a Nimitz-
class carrier to sea, largely thanks to the automation that we 
have embedded into the systems. So that is a lifecycle cost 
savings. And then as Admiral Moore described, the efforts to 
improve reliability and reduce maintenance loads makes the 
carrier more available to get underway in its 50-year service 
life.
    Going beyond 50 years, that would entail another refueling 
cycle for the aircraft carrier. And our experience to date is 
at that stage of the hull's life, you are better proceeding 
with replacing the hull with a new ship than to try to refuel a 
50-year-old hull to get another 25 years out of it.
    Mr. Johnson. Thank you. As our carriers operate within the 
carrier strike group, how do we stand as far as supporting 
vessels and resources that the Navy needs to ensure that every 
carrier group is properly supported?
    Admiral Aquilino. Sir, the Military Sealift Command [MSC] 
is the supporting assets to meet our carrier strike group 
logistics requirements. They are currently structured to meet 
the force structure size of 11 carriers. And they are sized 
rightly to do that. They forward position in some cases, they 
deploy with them in other cases. But currently, we are matching 
the need with the requirement.
    Secretary Stackley. I would simply add, I described in my 
opening remarks the Force Structure Assessment that was 
completed by the CNO in 2012 and updated each year since. That 
outlines a very balanced force. So while the carrier, the 11-
carrier force is the centerpiece, it also includes all the 
escort ships that are part of the carrier strike group, and 
support ships associated with replenishing supplies on the 
carrier and to support not just the carrier, but also the ships 
that would accompany her on deployment.
    And so then if you look at our shipbuilding plan going 
forward, you will see each type of ship that is outlined in 
that Force Structure Assessment, its procurement plan to either 
build new or to extend its service life to ensure that we have 
the full complement described.
    Admiral Manazir. Sir, and if I can add, the Force Structure 
Assessment that Secretary Stackley is describing, to go back to 
a question that was asked by I believe the gentleman from 
Texas, this Force Structure Assessment is sized for United 
States Navy force to conduct a complex, multi-phase campaign 
against a high-end adversary in one region, and be able to 
deter or impose costs on an adversary in another region. This 
force is designed to do that all the way to 2030, is our 
assessment.
    Mr. Johnson. Thank you. In your opinion, does it make more 
sense to--well, let me ask the question this way. With respect 
to the sustainment phase of ship construction, how would the 
requested funding be allocated to sustain the carrier force as 
it is?
    Secretary Stackley. I think what you are describing there, 
sir, is our funding in the President's budget request, we have 
new construction funding, which is ships, conversion, and Navy, 
which is SCN, but inside of our operations and maintenance 
account is the maintenance funding required to support the 
carriers and their service life.
    So we talked earlier about the Optimum Fleet Response Plan. 
That lays out the cycle by carrier strike group for ships 
entering the maintenance window between deployments. And then 
the budget request that comes over annually provides the 
funding for the stack of ships that would be in depot 
maintenance as well as routine maintenance to execute the 
requirements consistent with the O-FRP. And it is done by ship 
type in terms of both maintenance and modernization for the 
specific windows.
    Mr. Johnson. Thank you. And I yield back.
    Mr. Forbes. The gentleman yields back. The gentlelady from 
New York, Ms. Stefanik, is recognized for 5 minutes.
    Ms. Stefanik. Thank you, Mr. Chairman. And thank you to the 
panelists for your testimony today and for your service and for 
your families' service to our Nation.
    I am proud to represent Fort Drum, home of the 10th 
Mountain Division. And as you know, currently brigades are 
forward deployed in Afghanistan and Iraq, and have been since 
September 11, 2001. And recently, I was fortunate to embark on 
the USS Truman while she was underway. And I also accompanied 
Chairman Wittman on a visit to the Naval Strike and Air Warfare 
Center, at NAS [Naval Air Station] Fallon in order to view the 
entire workup and training cycle prior to deployment. And these 
visits, both of them, made it very clear the significant role 
the Navy has in providing close air support to troops on the 
ground.
    And recently, there has been discussion about how our air 
wings may require some adjustments in order for the carrier 
strike group to be successful in the high-end fight against 
competitors like China. But as our Navy considers how to meet 
these challenges from the high-end threats, I also hope that 
the capabilities are maintained so that the carrier air wing 
can continue the support of troops on the ground like the 10th 
Mountain Division soldiers that I represent.
    So can you please explain to me how you plan to maintain or 
improve the carrier air wing's current close air support 
capabilities while simultaneously preparing for a high-end 
fight against a peer competitor?
    Admiral Manazir. So ma'am, that is my job as the Director 
of Air Warfare. I will tell you that the F-18Es and Fs that are 
over the top of our troops in northern Iraq and Syria and in 
Afghanistan supporting those troops for a decade are the same 
fighters that we will have through 2035. And coupled with the 
Joint Strike Fighter F-35C, which has significant close air 
support capabilities, you will still have the close air support 
capabilities that we have enjoyed for the last 15 years in 
these fights in different AORs.
    Those same aircraft, F-18Es and Fs and F-35Cs, are capable 
of operating in the high end, particularly when coupled with 
the E-18G Growler. So the air wing that you see on the flight 
decks now, augmented by the F-35C in August of 2018, will 
continue to be able to operate across all the phases of 
warfare, whether it is close air support or whether it is a 
high-end fight against an anti-access/area-denial type of 
adversary.
    Ms. Stefanik. Great. Thank you, Admiral. Any other 
comments?
    Admiral Aquilino. No, ma'am, other than we are completely 
integrated with the Army team on the ground. We have made 
numerous operational changes. At my last deployment I had three 
Army LNOs [liaison officers] who rode the ship with us in 
direct communications with the troops on the ground in order 
for the pilots who were about to take off had the latest and 
greatest update on the situation on the ground so they could 
best support them. It is the most important thing we do, and we 
take it very seriously.
    Admiral Manazir is putting together a great list of 
equipment so that we are synchronized, aligned, and 
interoperable with our Army and Marine Corps team that is on 
the ground.
    Ms. Stefanik. Great. I know I speak for the 10th Mountain 
soldiers I represent that we are appreciative of that support. 
And I yield back.
    Mr. Forbes. The gentlelady yields back. The gentleman from 
Oklahoma is recognized for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. And I would like 
to thank all of the great service members that are testifying 
today. I am a Navy pilot by trade. I recently traded in my 
wings of gold for wings of silver. But I still, at heart, am a 
Navy pilot.
    I joined my fleet at a perfect time. I joined VAW-113, the 
world famous Black Eagles. And when I joined the squadron, we 
were in the middle of what was called at the time an 
interdeployment training cycle, IDTC. So I had the opportunity 
as a brand new guy coming out of the FRS [Fleet Replacement 
Squadron], had an opportunity to see the whole IDTC worked 
through. I got to participate in the Strike Fighter Advanced 
Readiness Program. I got to participate in JTFX [Joint Training 
Fleet Exercise], Air Wing Fallon, COMPTUEX [Composite Training 
Unit Exercise]. I eventually, after I finished my sea tour, I 
went and worked at the Naval Strike and Air Warfare Center.
    But what was interesting is, it was an 18-month cycle 
followed by a 6-month deployment. And then we had the wars in 
Afghanistan start and the war in Iraq start. And what was the 
IDTC ended up being instead of a 6-month deployment, a 10-month 
deployment. And at that point, it seemed like the 
interdeployment training cycle pretty much went off the rails 
and they started new programs, Fleet Response Plan, and now the 
Optimized Fleet Response Plan. And even with these plans, to 
get more out of less, still gaps are emerging that are in my 
estimation dangerous.
    And one of the questions I have is, have you guys done a 
detailed analysis as to what the impacts would be for the 
training cycle if instead of 11 carriers we had 12? And I know 
other members have asked this question. But what would be 
specifically the impacts? I know that 12 is better than 11; we 
heard that. But what would it do, for example, for the IDTC, 
which of course has a different name these days? What would it 
do for the men and women who serve? Would they get to maybe not 
deploy as frequently? Would the deployments be 6 months instead 
of 10 months? Would there be fewer gaps, for example, in the 
Persian Gulf or in the Mediterranean? Would there be more time 
for us to stay at home training and maintaining not only the 
ships, but also the aircraft?
    So all of these kind of things that go into determining 
what is the right force structure and do we need 11 or 12. Can 
we get specific analysis as to what are the impacts? What is 
the difference in the fleet if we have 12 instead of 11?
    Admiral Aquilino. Sir, I will hold off on the analysis 
piece, but I will get to your discussion on the training cycle. 
So the Optimized Fleet Response Plan is targeted to do what you 
highlighted as somewhat of a frustration. In that plan, the key 
segments of the design, the ship must get in on time for 
maintenance, it must get out on time. That preserves 120-plus 
days of basic training for the ships and the pilots to do the 
SFARPs [Strike Fighter Advanced Readiness Programs] and things 
you described. It also carves out an integrated class advance 
timeline of 120-some-odd days to do the COMPTUEXs and the 
JTFXs. And it preserves that ability to do the high-end 
training that previously I think we have seen was the shock 
absorber for when you either had to deploy early or when the 
ship came out of maintenance late.
    We are fencing that, understanding that the only way to 
train to the high end is to preserve that time and then have 
discipline in the process. That is a critical part of O-FRP.
    Mr. Bridenstine. So if that time is preserved, how are you 
stretching? Are you getting like when you deploy, the 
deployments are longer? Is that the goal?
    Admiral Aquilino. We have done longer deployments in the 
past. But the tenet of O-FRP that the CNO needed to get to, 
based on a couple of questions before, was a commitment to a 7-
month deployment. That is for the crews and families so that, 
number one, it is predictable; number two, it doesn't impact on 
future retention problems later. Because as you know, you know, 
1 day is okay, 6 months pretty challenging, 10 months is really 
hard. And I think the CNO wants to get away--we need to put 
that predictability back in. So the commitment to 7 months as a 
part of our force generation model is critical.
    Mr. Bridenstine. When you say commitment to 7 months, 
meaning not to go past 7 months or do at least 7 months?
    Admiral Aquilino. Seven months is the targeted goal for a 
carrier strike group deployment. That is what we are bringing 
into the global force management process. That is the number 
that we use to generate the presence needed--or presence 
provided under a supply-based model that we are using today.
    Mr. Bridenstine. Okay. I am down to my last second here. 
Can we get maybe for the record what that analysis would look 
like for those items I mentioned regarding a 12-carrier fleet 
vice an 11-carrier fleet?
    Admiral Manazir. Sir, at risk of not answering your 
question but telling you, we referred to a Force Structure 
Assessment that was delivered by the Navy to the Congress in 
February of this year. That Force Structure Assessment looked 
from now until 2030 using the Optimized Fleet Response Plan and 
looking at the projected threat capabilities. And that 
assessment came down and said 11 is the minimum number we need 
with an acceptable level of risk to----
    Mr. Bridenstine. Does that mean gaps when you say 
acceptable?
    Admiral Manazir. Sir, the gap part is different. That is 
the global employment of force. That is the global force 
management model gap. But 11 is the minimum force we need from 
a capability perspective. As Vice Admiral Aquilino testified 
to, a different process is used as to where to put that force. 
But the Force Structure Assessment was submitted by the Chief 
of Naval Operations to say that 11 is the number if you look 
across our force.
    So that, sir, was the analysis that was submitted to 
Congress in February of this year.
    Mr. Bridenstine. So there is no analysis as to what would 
the impact be if you had 11? I am just asking. I mean nobody 
looked into that?
    Admiral Manazir. From what perspective, sir? If you are 
talking about where we would put the forces----
    Mr. Bridenstine. From a gap analysis. Would it reduce gaps? 
Would it allow service members to spend more time at home to do 
training and to do maintenance and ultimately----
    Secretary Stackley. Let me take that, sir. No, we have not 
done an analysis for a 12-carrier force since the JFK [John F. 
Kennedy] retired in 2006 timeframe.
    Mr. Bridenstine. Okay.
    Secretary Stackley. To conduct that analysis, in other 
words to take the Force Structure Assessment that we have done 
and say what if we were a 12-carrier Navy, that would be not 
just adding a carrier, obviously, that would be adding all the 
elements associated with the carrier strike group, as well as 
the sailors that would be added to the deployment cycle, which 
is not a one for one. So that would be a very comprehensive 
assessment.
    Today, what we do is, as Admiral Aquilino described, is we 
are a supply-side equation today, where we know the force that 
we have got, we take a look at the peacetime presence demands, 
and we take a look at major combat operations and we see can we 
supply the amount of force necessary to satisfy both? Clearly, 
there is higher demand from the combatant commanders today than 
we can provide in an 11-carrier force.
    So there is a prioritization that takes place inside the 
Joint Staff in terms of the GFMAP [Global Force Management 
Allocation Plan]. For major combat operations, the 11-carrier 
force to provide the two plus three surge carrier strike 
groups, we believe is what is necessary to meet our 
requirements. Would a 12th carrier strike group relieve some of 
the burden to the total force in terms of operational cycles? 
Yes, it would. Do we know what that would entail in terms of 
the total force structure, including sailors, and how that 
would ripple through the Optimized Fleet Response Plan? We have 
not done that analysis.
    Mr. Bridenstine. Okay. Thank you.
    Mr. Forbes. The gentleman's time has expired. Let me say to 
you gentlemen, thank you for being here. Just a couple of wrap-
up questions that I deferred from the beginning. The role of 
our two subcommittees that we have chosen to take today is not 
to point blame at Republicans or Democrats, the administration 
or Congress, not to point blame at the cuts of $780 billion 
versus sequestration, but it is to assess risk and to see how 
we--and threats, and see how we can fill those gaps.
    As I listened, Admiral Moore, to some of your speeches, 
which I appreciate and look at, you had a phrase that I have 
copied. And sometimes I give you credit for it and sometimes I 
don't. But it is that we are an 11-carrier Navy in a 15-carrier 
world. And you probably said it more articulately even than 
that. But it sums up the fact that based on what Mr. Conaway 
was talking about, all those risks, we probably need 15 
aircraft carriers as opposed to 11.
    Admiral Manazir, in all of your analysis you have told me 
privately, and not with any analytical backing behind it, but 
if we could ask you guys to go in another room and we brought 
our combatant commanders here, the guys who look every day into 
the risk that Congressman Conaway talked about, that growing 
risk of Russia, China, everything else in the world, they may 
say we need 21 aircraft carriers, but certainly more than what 
we have. Regardless of what Admiral Moore would say that we 
might need in the world, or Admiral Manazir, what we may have 
from our combatant commanders, the reality is that the United 
States Congress and the United States Navy have basically 
agreed we need 11 aircraft carriers. And we have less than that 
today.
    The United States Navy has also, I think based on your 
testimony, concluded that the mere presence of one of those 
carrier strike groups has a significant role in stopping a 
conflict from going to phase zero to phase three. Therefore, 
not having that carrier creates a huge vulnerability that we 
cannot stop that escalation from taking place.
    So I ask any of you, if you can tell us the size gap that 
we will have over the next 12 months in either the Pacific 
Command or Central Command, where we will not have a carrier 
strike group present?
    Admiral Aquilino. Yes, sir. There are in the next year some 
periods similar to what we are seeing in the CENTCOM AOR now. 
Again, the reason is, number one, not because we don't want to.
    Mr. Forbes. No, no, this is not fault.
    Admiral Aquilino. Copy.
    Mr. Forbes. And we have already established we have the 
gap. How large is the gap? We have heard that in non-classified 
statements. Can you tell me how many days that gap will be 
present in the next 12 months?
    Admiral Aquilino. I would prefer to tell you that offline, 
if that is okay, for classification purposes.
    [The answer was submitted in a classified forum.]
    Mr. Forbes. Okay. That would be fine. Okay. How about 
CENTCOM? Can you tell us what is going on there right now that 
is not a classified?
    Admiral Aquilino. Currently, as has been reported, there is 
a gap in the CENTCOM AOR.
    Mr. Forbes. And when we mean gap, just so we know when we 
look the term up, we mean no carrier strike group.
    Admiral Aquilino. Yes, sir. That is the gap.
    Mr. Forbes. And the other thing that we can agree upon that 
I think the United States Navy has concluded and made a 
judgment of, and the CNO has said, is that if we do not have 
that capability of having three carrier strike groups for the 
surge, which means we can bring them to the fight if we are not 
successful in keeping it from going from zero to phase three, 
that that has a huge impact on whether or not we can win or 
lose that conflict. Is that fair to say?
    Admiral Aquilino. Yes, sir. Those follow-on assets that 
would be needed for many of the crises that are potential, they 
are critical to being able to win the fight, absolutely.
    Mr. Forbes. And if they are critical to winning the fight 
and we need three of those strikes to supplement the two that 
we don't always have right now, give me an idea of the 
timeframe that I would be looking at over the next 12 months--
and let me use my friend Mr. Courtney's phrase if the balloon 
goes up--and maybe I would rephrase it if we had a conflict 
that went from zero to three. How long would it take to 
mobilize those three carrier groups and to send them on their 
way to that fight?
    Admiral Aquilino. If you don't mind, sir, I would prefer to 
give you those numbers offline as well.
    [The answer was submitted in a classified forum.]
    Mr. Forbes. Be fair to say, though, it would be a 
significant amount of time?
    Admiral Aquilino. Yes, sir. And definition of significant--
--
    Mr. Forbes. I understand.
    Admiral Aquilino [continuing]. We can talk.
    Mr. Forbes. Now, the last thing I would like to put on that 
equation too is we know we do not have--we will have times 
where we will not have a carrier strike group in the Pacific 
Command or the Central Command, that that has a huge impact on 
whether we can deter a fight from going from phase zero to 
phase three. That in addition to that, we would have what we 
would conclude to be a significant time period, regardless of 
what significant means, in when we could mobilize the three 
carrier strike groups we would need to surge, therefore having 
an enormous detrimental impact on whether we could win or lose 
that conflict.
    When we talk about even if we win or lose, that time delay, 
can you tell me whether or not that could also equate to 
putting at significant risk the lives of men and women who 
would be in that fight?
    Admiral Aquilino. Absolutely, sir. So a part of the 
planning that goes on, absolutely, is identified by the amount 
of time your forces can respond. The delay to the response of 
those forces absolutely increases the risk, the timelines you 
are on, and ultimately gets to a personal risk.
    Mr. Forbes. And Admiral, you have looked at our military 
objectives. Can we accomplish all of our military objectives 
with our current aircraft carrier presence and surge posture?
    Admiral Aquilino. Sir, the 11-carrier force that is 
identified as needed absolutely----
    Mr. Forbes. No, no, I understand that. I am talking about 
today, with what we have today, and the world we are living in 
today and the environment you have. Can you accomplish it with 
what you have?
    Admiral Aquilino. I would say we are accomplishing it, the 
requirements, at increased stress to the force and the ability 
to get to a sustainable posture that allows us to carry a Navy 
into the future to meet those same requirements over the long 
term.
    Mr. Forbes. And when I----
    Secretary Stackley. Sir I would just add to that, and I 
think it is in black and white in terms of the Force Structure 
Assessment that the CNO outlined. We require 11 aircraft 
carriers to meet our full range of military operational 
requirements. Today we are at 10, and we are at 10 that are 
highly stressed because they have been driven hard. And so we 
have more carriers in depot maintenance today than we would 
normally have under a stable, a more stable operational cycle 
with an 11-carrier force.
    So we have the compounding impact of we are down a carrier 
and then driving the remaining carriers harder. We have more 
carriers in depot maintenance. So we have a shortfall in terms 
of our ability to generate the carriers with their air wings in 
response to crisis today. And until we get the Ford ready for 
deployment and we are back up to 11 carriers and the Optimized 
Fleet Response Plan catches hold in terms of restoring our 
operational and maintenance cycle to where it needs to be, 
until we get back into that state, we are going to be operating 
at a deficit.
    Mr. Forbes. And Mr. Secretary, we are here to help you. We 
are just trying to define what that risk is so we can make sure 
we shore it up. I do have one last question for you. The Navy 
has proposed a two-phased acquisition strategy for the 
construction of the USS John F. Kennedy, CVN 79. Now I 
understand that first phase would construct the hull and 
superstructure of the ship and the second phase would insert 
the combat systems. Has the Navy ever performed a two-phase 
aircraft carrier strategy? And is such a strategy contemplated 
for CVN 80? And can you tell us the reason why we are adopting 
that phase?
    Secretary Stackley. Yes, sir. The first question regarding 
whether the Navy has done this before on a carrier, I would 
have to go back and research whether we have done it with a 
carrier, but we have done that with surface combatants in the 
past where the shipbuilder would build the ship and then at a 
Naval Shipyard we would install the combat system.
    Today, in fact, on the DDG-1000 [Zumwalt-class destroyers] 
program we are doing exactly that as well. I would have to do 
research in terms of whether we have done it on a carrier. The 
motivation for doing this, the CVN 79 is the numerical relief 
for the Nimitz, which retires in 2025. At one point in 
planning, the Navy was looking at the construction schedule for 
the CVN 79 to support a heel-to-toe replacement of the Nimitz. 
That is not an optimal construction schedule for the 
shipbuilder. So there is this tension between we wanted to 
build the ship earlier to reduce cost of construction, but she 
is not required until Nimitz gets ready to retire. So do we 
ramp up a crew, have a ship operational for a period of time in 
advance of when she is needed? So those were the trades that we 
were looking at from a schedule perspective. Separately, we 
were looking at how can we reduce the cost of the CVN 78 class 
through its construction. And a couple things jump out.
    One is there is work that is better tailored, better suited 
for being accomplished outside of the new construction yard 
where third parties could bid on it competitively. Two, we have 
this long history of a very long construction cycle for the 
carrier. Systems that you identify early on in the procurement 
process, particularly electronic systems, command, control and 
communication systems that are subject to obsolescence, by the 
time the ship is built and it is outfitted and delivered, those 
systems are already obsolete compared to the rest of the Navy. 
So we looked for an opportunity to install those systems as 
late as possible.
    And then the third piece is a very specific system which is 
the radar for the CVN 79 and follow. We are in fact developing 
a new radar for our carriers and big deck amphibs [amphibious 
assault ships], the Enterprise Air Surveillance Radar. That 
would not be available to install in line in construction on 
the CVN 79, but it is available to install in the second phase.
    So we looked at let's optimize the construction schedule, 
which means building it earlier, but then let's assign the 
manning more in line with the replacement of the Nimitz. So 
that created this bifurcation in terms of the schedule. And 
then in this phase two window we will install the C4I [command, 
control, communications, computers, and intelligence] 
equipment, the electronics equipment, we will install the new 
radar, and then we will complete some of this work that would 
be competed, frankly, with third parties and be able to be done 
pierside.
    It seems to be the right balance. It is unique to CVN 79 
because of the schedule window that we have to do this. We will 
not have this opportunity on CVN 80 because her schedule, her 
construction schedule is going to be pressed up against she 
will be the numerical relief for the CVN----
    Mr. Forbes. So we don't have plans to use it on CVN 80?
    Secretary Stackley. No, sir. No, sir.
    Mr. Forbes. Gentlemen, thank you for being here today. As 
you know, each day we come into this rather impressive 
committee room, I look at all the things I worry about in the 
world and the things I am grateful for. One of the things I am 
grateful for is that we have talented people with the kind of 
commitment that you have to making sure you are defending and 
protecting this country. So we thank you for that.
    Also, I have told you at the beginning that we wanted to 
give you any time that you needed to elaborate on something 
perhaps that we didn't discuss you felt was important for the 
record or to clarify something that you would like to clarify. 
So at that time I would love to do that. And Mr. Secretary, we 
will let you start.
    Secretary Stackley. Sir, I gave an opening statement. I 
have had plenty of time to discuss the issues and questions and 
answers. And I would defer to my colleagues here.
    Mr. Forbes. Okay.
    Admiral Aquilino. Sir, I am trying not to get quoted by 
you, as Admiral Moore did, just so you know.
    Mr. Forbes. Look, I am praising him. We would love to have 
another quote like that.
    Admiral Aquilino. What I will leave you with, sir, just so 
you are aware, you know better than anyone your Navy is forward 
deployed each and every day doing the things that are needed. 
So I thought, based on the carrier hearing, I would tell you 
where your current--we talked about where the five parked ones 
are. Let me tell you where the five working ones are.
    So Theodore Roosevelt, just coming back from a greater than 
8-month deployment that was in the north Arabian Gulf in 
support of the fight against Syria and ISIL [Islamic State of 
Iraq and the Levant]. On the way home, they went and 
participated with Operation Malabar with the Indian Navy. They 
also participated with the Japanese Navy as a part of that as 
well.
    Ronald Reagan now deployed as the forward-deployed naval 
force carrier coming out of Korea, doing operations in the 
Western Pacific. They will participate in an operation called 
ANNUALEX [Annual Exercise] with the Japanese. Pretty critical 
to our allies and partners to stay plugged in, interoperable.
    George Washington we talked about. While she is coming 
around to go into overhaul, she is executing Operation UNITAS 
on both the west side and the east side of South America, 
working with our partners down there across the globe.
    John C. Stennis on the West Coast and Harry S. Truman on 
the East Coast, both are almost complete with their workups. 
They will be deploying shortly as the follow-on replacements.
    And sir, I know I don't have to tell you that, but I 
figured you would want to hear that. Still working hard each 
and every day. Thank you for your time. And I appreciate it.
    Mr. Forbes. Thank you, Admiral. And Admiral Moore, we would 
love to have another great statement.
    Admiral Moore. I will try to avoid that today, sir, if I 
could. Mr. Chairman, I appreciate the time today. I have had 
one of the great honors of my career to have the opportunity to 
design and build and maintain our Nation's aircraft carriers. 
We didn't spend a whole lot of time talking about the Ford 
class today. Despite some of the challenges we have had with 
Ford, we are going to deliver her next year. We are on a 
sustainable path going forward. That is going to be a great 
ship, built by some fantastic shipbuilders down at Newport 
News, which are national assets.
    I did spend a lot of time talking about the Nimitz class 
and our need to maintain that ship for 50 years, and spent an 
awful lot of time talking about the industrial base. What I 
failed to mention is one of the things that we also should be 
worried about; I think the industrial base, no matter how hard 
we can run these ships, will be able to maintain the ship.
    One thing I failed to mention I should have, the other 
thing is we are also running the sailors and the men and women 
on those ships extremely hard. And I have no doubt that the 
industrial base can put those ships back together. But I do 
worry about the pace that we are maintaining for our sailors. 
And so I would just like to add that for the record and point 
out again why it is so important for us to get back to 11 
carriers.
    Mr. Forbes. Thank you, Admiral. Admiral Manazir, we are 
going to let you do cleanup.
    Admiral Manazir. Mr. Chairman, usually I am not shy as a 
fighter pilot, but I will try also not to make declarative 
statements beyond what you have already discussed with us 
today. And I thank you for the opportunity. I would like to 
clarify one point and then give some closing comments.
    Chairman Wittman, when you and I discussed the Super 
Hornets and F-35Cs, what I needed to clarify is why we buy both 
of those, the impact of the F-18E/F is most impactful at 2016, 
2017, 2018. The airplanes we are procuring now and that combat 
capability of course go together. And as Secretary Stackley 
said, the F-35Cs that we are procuring in 2016 to deliver 2018 
is the capability impact. So I hope that is a little more 
clear.
    Sir, thank you very much. And Chairman Forbes, Ranking 
Member Courtney, thank you, members of the committee today, for 
the opportunity to join you and for the personal investment so 
many of you have made in ensuring Navy's ability to defend the 
Nation, to protect American interests at sea, and specifically 
for your ongoing support of our Nation's aircraft carriers.
    As your Director of Air Warfare, this is what I worry 
about, lose sleep at night about. But your bipartisan support, 
your visits to our carriers both underway and while they are 
being built and maintained, the assistance you and your fellow 
members provide truly make a difference.
    Adaptations and improvements to our carrier strike group 
capabilities continue. And they include most recently USS 
Eisenhower recently completing a highly successful series of 
developmental tests for the F-35C, called Developmental Test 
Period Two. That is our fifth-generation strike fighter that 
will ensure the Navy's aircraft carriers deliver air dominance 
in that high-end warfight. The E-2D Advanced Hawkeye was 
deployed on the Theodore Roosevelt for the first time to bring 
superior long-range battle management command and control, with 
sensors that support offense and defense for the entire carrier 
strike group.
    The continued delivery of the carrier-based E-18G Growler 
as the only tactical aircraft in the joint force that ensures 
electromagnetic spectrum dominance of the battlespace. And the 
continued development of advanced weapons for carriers and 
their embarked air wings in anticipation of future adversaries, 
such as the long-range anti-ship missile. And even high-energy 
lasers, which will help ensure carrier strike groups can 
establish sea control in any environment.
    The maintenance and modernization of our current aircraft 
carriers and the ongoing procurement of the new Ford-class 
ships will ensure our Navy's aircraft carriers and carrier 
strike groups continue to outpace the threat and bring 
unparalleled warfighting capability for the combatant 
commanders. My colleagues at this table and over in the 
Pentagon understand and are committed to the work that remains 
to ensure providing these capabilities does not cost the 
taxpayer a dollar more than they should.
    The Nation's investment in aircraft carriers is 
significant. Their global reach, their ability to amass 
firepower over sustained periods, their commanding presence and 
proof of our national resolve have routinely demonstrated a 
high return on these investments. The aircraft carrier, as the 
centerpiece of a carrier strike group, provides us with an 
unequaled hard, soft, and smart power advantage in a single, 
responsive, flexible, and mobile package, unfettered by 
geopolitical constraints. No other military capability delivers 
more.
    Sir, thank you very much for the opportunity to testify 
today.
    Mr. Forbes. Thank you all. We appreciate the great work 
your staffs do in helping as well. And with that, if there are 
no other questions, we are adjourned.
    [Whereupon, at 4:07 p.m., the subcommittees were 
adjourned.]


      
=======================================================================




                            A P P E N D I X

                            November 3, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 3, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
       
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 3, 2015

=======================================================================

      

                    QUESTION SUBMITTED BY MR. FORBES

    Mr. Forbes. As to the two phase acquisition strategy, what would 
the funding profile include, by fiscal year, to realize CVN-79 in a 
single phase?
    Admiral Moore. Delivering CVN 79 using a two-phased acquisition 
strategy is essential to remaining under the Congressional cost cap, 
delivering the ship with CVN 78-like capability, and affordably 
maintaining an 11-carrier force structure. If the decision were made 
today to transition to a single phase acquisition strategy, it would 
cost $532M more to deliver CVN 79 in a single phase as opposed to the 
current two-phased approach. The two funding profiles are shown below 
for comparison:
    In this scenario, a single phase delivery would prevent the 
integration of a lower cost Enterprise Radar Suite (ERS), requiring 
reversion to Dual Band Radar (DBR). The additional funding required in 
FY2017 and FY2018 reflects the cost to procure DBR hardware and 
software; accomplish the planning effort with HII-NNS to reintegrate 
installation of the Phase II equipment into the current construction 
contract; and the construction impact and time-related services caused 
by an 18-month extension of the construction contract with HII-NNS 
required to support installation of DBR. This process would deliver the 
ship only about six months earlier than planned due to procurement 
timelines associated with purchasing a DBR ship set for CVN 79.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HUNTER
    Mr. Hunter. I'm familiar with the report you provided to the 
Defense Committees on the Automated Test and Retest (ATRT) program. In 
your report you said there are significant benefits to the fleet 
including reducing testing cost, improving product quality, reducing 
the time to field new capabilities, and reducing life cycle costs. This 
technology can rapidly re-test in response to cyber vulnerabilities. We 
know this to be an issue of concern--and I've raised this issue with 
both Secretary of Defense Carter and Under Secretary Kendall. Can you 
assure me you are aggressively pursuing this technology to its full 
potential including implementation across our entire carrier fleet?
    Secretary Stackley. The Navy is pursuing Automated Test and Retest 
(ATRT) technology for the aircraft carrier (CVN) Fleet. The ATRT 
technology is being used in testing the CVN Machinery Control System. 
The technology is also being used in CVN Ship Control System Shore 
Based Facility testing. The Navy intends to extend the process and 
technologies across additional control systems for the entire CVN 
Fleet.

                                  [all]
</pre></body></html>
